HHS/OIG-Audit--"Review of the Administration and Oversight of the Community Services Block Grant Program by the Commonwealth of Puerto Rico's Department of Family, Administration for Families and Children (CIN A-02-96-02004)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administration and Oversight of the Community Services Block Grant Program by the Commonwealth of
Puerto Rico's Department of Family, Administration for Families and Children" (A-02-96-02004)
February 13, 1998
Complete
Text of Report is available in PDF format (1.06 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of the administration and oversight of the community services block grant
program by the commonwealth of Puerto Rico's Department of the Family, Administration for Families and Children during
the period October 1, 1994 through September 30, 1996. Before July 1995, the Office of Services to Children and Community
Development, (SENDEC), under the Office of the Governor, was responsible for the administration and oversight of the Puerto
Rico Community Services Block Grant (CSBG) program. As a result of a reorganization in July 1995, SENDEC was renamed the
Administration for Families and Children (AFAN) and transferred to the newly created Department of the Family (former Department
of Social Services).
The objective of our audit was to evaluate AFAN's administration and oversight of the CSBG program. Specifically, we reviewed
the process AFAN used to evaluate grantee applications, its method for determining the amount of funds to be awarded to
each grantee, and its monitoring of the CSBG program's effectiveness.
Our review disclosed two major weaknesses with AFAN's administration and oversight of the CSBG program. Contrary to program
requirements, AFAN did not follow established policies and procedures in its technical evaluations of the merits of proposed
projects. Program effectiveness was not considered in the evaluation of grantee applications.